©Ip

3tatc of Beto Jgork
dourt of appeals
BEFORE: HON. EUGENE M. FAHEY,
Associate Judge
THE PEOPLE OF THE STATE OF NEW YORK,
ORDER
DENYING
LEAVE

Respondent,
-againstMICHAEL N. KELSEY,
Appellant.

Appellant having applied for leave to appeal to this Court pursuant to Criminal
Procedure Law § 460.20 from an order in the above-captioned case;*
UPON the papers filed and due deliberation, it is
ORDERED that the application is denied.

Dated:

DEC 2 8 2020
at Buffalo, NY
;

EUGENE M. FAHE^~
Associate Judge
‘Description of Order: Order of the Supreme Court, Appellate Division, Third
Department, entered January 23, 2020, denying defendant's application for a writ of
error coram nobis.

f

lr

State, of New York
Supreme Court, Appellate Division
Thirdjudicial Department

,!
$

Decided and Entered: January 23, 2020

110652

THE PEOPLE OF THE STATE OF NEW
YORK,
v
iI

Respondent,
DECISION AND ORDER
ON MOTION

MICHAEL N. KELSEY,
Appellant.

1li
Motion for writ of error coram nobis to vacate decision and order of this Court in
People v Kelsey (174 AD3d 962 [2019], Iv denied 34 NY3d 982 [2019]).
^

^

Upon the papers filed in support of the motion and the papers filed in opposition
ORDERED that the motion is denied.

1!

k.

!;
!

Garry, P.J., Egan Jr., Lynch and Clark, JJ., concur.
ENTER:

i
k

i!
!

Robert D. Mayberger
Clerk of the Court

#

3tate of Betti jBork
Court of appeals
BEFORE: LESLIE E. STEIN, Associate Judge

THE PEOPLE OF THE STATE OF NEW YORK,
Respondent,
-against-

ORDER
DENYING
LEAVE

MICHAEL N. KELSEY,
Appellant.

Appellant having applied for leave to appeal to this Court pursuant to Criminal Procedure
Law § 460.20 from an order in the above-captioned case;*
UPON the papers filed and due deliberation, it is
ORDERED that the application is denied.

Dated:

Ockiu K/Zoft
at Albany, New York
&*

Associate Judge
*Description of Order: Order of the Appellate Division, Third Department, entered July 3,2019,
affirming a judgment of the County Court, St. Lawrence County, rendered October 21,2016.

]

State of New York
Supreme Courtj Appellate DivisionThirdJudicial Department
Decided and Entered:

.

July 3, 2019

THE PEOPLE OF THE STATE OF
NEW YORK,
Respondent,
v

110652

MEMORANDUM AND ORDER

MICHAEL N. KELSEY
Appellant.

Calendar Date:
Before:

May 3, 2019

Garry, P.J., Egan Jr., Lynch, Clark and Rumsey, JJ.

The Law Office of Shane Hug, Troy (Shane Hug of counsel)
for appellant.
Gary M. Pasqua, District Attorney, Canton (Matthew L.
Peabody of counsel), for respondent.

Lynch, J.
Appeal from a judgment of the County Court of St. Lawrence
County (Catena, J.), rendered October 21, 2016, upon a verdict
convicting defendant of the crimes of sexual abuse in the first
degree, attempted sexual abuse in the first degree, forcible
touching and endangering the welfare of a child (two counts).
In June 2015, defendant was charged in a five-count
indictment with sexual abuse in the first degree, attempted
sexual abuse in the first degree, forcible touching and two
counts of endangering the welfare of a child. The charges
stemmed from defendant sexually touching victim A (born in 1999)

)

i

i!

j!
r!

t

-2-

110652

and attempting to sexually touch victim B (born in 1999) while
supervising a week-long boy scouts hiking trip. Following a
jury trial, defendant was convicted as charged. Thereafter,
defendant was sentenced to a prison term of five years followed
by 10 years of postrelease supervision for his conviction of
sexual abuse in the first degree and to a consecutive prison
term of two years followed by 10 years of postrelease
supervision for his conviction of attempted sexual abuse in the
first degree, as well as to other lesser concurrent sentences.
Defendant appeals.
Defendant contends that the jury verdict is not supported
by legally sufficient evidence and is against the weight of the
evidence. Initially, as defendant concedes, he failed to
preserve his legal sufficiency claim as he did not move for a
trial order of dismissal (see People v Hawkins. 11 NY3d 484, 492
[2008]; People v Secor, 162 AD3d 1411, 1412 [2018], lv denied 32
NY3d 941 [2018]). "However, a weight of the evidence challenge,
which bears no preservation requirement, also requires
consideration of the adequacy of the evidence as to each element
of the crimes" (People v Werkheiser, 171 AD3d 1297, 1298 [2019]
[internal quotation marks and citations omitted]; see People v
Vega. 170 AD3d 1266, 1267 [2019]). "When undertaking a weight
of the evidence review, we must first determine whether, based
on all the credible evidence, a different finding would not have
been unreasonable and then[, if not,] weigh the relative
probative force of conflicting testimony and the relative
strength of conflicting inferences that may be drawn from the
testimony to determine if the verdict is supported by the weight
of the evidence. When conducting this review, we consider the
evidence in a neutral light and defer to the jury's credibility
assessments" (People v Gill. 168 AD3d 1140, 1140-1141 [2019]
[internal quotation marks and citations omitted]; see People v
Hackett. 167 AD3d 1090, 1091-1092 [2018]).
The focus of defendant's argument is that the evidence
failed to demonstrate that he committed the charged crimes
because of inconsistencies in each victim's testimony. As
relevant here, "[a] person is guilty of sexual abuse in the
first degree when he or she subjects another person to sexual

-3-

110652

!

r
!'

I;

contact . . . [w]hen the other person is incapable of consent by
reason of being physically helpless" (Penal Law § 130.65 [2]).
"A person is guilty of forcible touching when such person
intentionally, and for no legitimate purpose . . . forcibly
touches the sexual or other intimate parts of another person for
the purpose of degrading or abusing such person, or for the
purpose of gratifying the actor's sexual desire" (Penal Law
§ 130.52 [1]). Additionally, as charged herein, "[a] person is
guilty of endangering the welfare of a child when . . . [h]e or
she knowingly acts in a manner likely to be injurious to the
physical, mental or moral welfare of a child less than [17]
years old" (Penal Law § 260.10 [1]).
At trial, the two victims testified and described various
acts of defendant touching and attempting to touch their
penises, occurring at specific times and places. They each also
described a game played during scouting trips called "padiddle,"
during the course of which the losing player in a round would
remove an article of clothing. Each victim described the
circumstances and delay in their disclosure of these incidents.
They were each subject to cross-examination, and certain
inconsistencies in their accounts were thus revealed. Victim
B's mother testified that, after victim B had disclosed to her
defendant's conduct, she contacted the police. Thereafter, at
the directive of the police, she made a controlled phone call to
defendant, in which he made incriminating statements with
respect to both victims.
Defendant denied the allegations of both victims.
Defendant testified extensively regarding the controlled phone
call between himself and victim B's mother providing various
explanations for his statements. On cross-examination,
defendant admitted to sending a series of emails in November and
December 2014 to a scout master in which he also made certain
incriminating statements. Other witnesses testified as to
defendant's positive reputation in the community, and two boy
scout witnesses testified that they were familiar with
"padiddle," but that game did not involve removal of clothing.

-4:
i

!■

i!
i;

110652

Regarding defendant's conviction of sexual abuse in the
first degree, both victims testified consistently that, while
they were asleep, defendant made and attempted to make sexual
contact with them, which established that the victims were
physically helpless and unable to consent to such conduct (see
Penal Law §§ 130.00 [7]; 130.65 [2]; People v Tucker. 149 AD3d
1261, 1262 [2017], lv denied 29 NY3d 1087 [2017]; People v
Yontz. 116 AD3d 1242, 1243 [2014], lv denied 23 NY3d 1026
[2014]). The victims' testimonies were further corroborated by
the controlled phone call between defendant and victim B's
mother, in which defendant admitted to attempting to touch
victim B and stated that it could have also happened with victim
A, as well as the email messages sent by defendant to a scout
master. Similarly, as to the forcible touching conviction,
victim A's testimony that defendant sexually touched him, while
defendant was sleeping next to him, established the requisite
contact to support the guilty verdict (see Penal Law § 130.52
[1]; People v Wagner. 72 AD3d 1196, 1197 [2010], lv denied 15
NY3d 779 [2010]). The inference that defendant's sexual
touching was to gratify his sexual desire is "clearly
appropriate when a nonrelative causes intimate contact with a
child" (People v Fuller. 50 AD3d 1171, 1175 [2008] [internal
quotation marks, ellipses and citations omitted], lv denied 11
NY3d 788 [2008]). As for the convictions of endangering the
welfare of a child, the testimony of each victim regarding
defendant's sexual contact and attempted sexual contact
establishes that defendant acted in a manner likely to be
injurious to the physical, mental or moral welfare of the
victims (see Penal Law § 260.10 [1]; People v Toft. 156 AD3d
1234, 1235 [2017]). Although both victims admitted to some
inconsistencies in their disclosures of the incidents, these
inconsistencies were minor and did not render their testimonies
"inherently unbelievable or incredible as a matter of law"
(People v Werkheiser. 171 AD3d at 1301 [internal quotation marks
and citation omitted]). Additionally, these issues were
thoroughly explored on cross-examination and presented
credibility questions to be resolved by the jury (see People v
Chanevfield. 157 AD3d 996, 1000 [2018], lv denied 31 NY3d 1012
[2018]; People v Russell. 116 AD3d 1090, 1092 [2014]). As such,
we find that the verdict was not against the weight of the

I

i
I

j

i

I
■

:
i

-5-

110652

evidence (see People v Hackett, 167 AD3d at 1093-1094; People v
Van Alphen. 167 AD3d 1076, 1078 [2018], Iv denied 32 NY3d 1210
[2019]).
Defendant also claims that he was deprived of the
effective assistance of counsel due to counsel's asserted
pretrial and trial errors. "In general, a defendant's
constitutional right to effective representation is met so long
as the evidence, the law, and the circumstances of a particular
case, viewed in totality, reveal that the attorney provided
meaningful representation" (People v Hackett. 167 AD3d at 1095
[internal quotation marks, brackets, ellipses and citations
omitted]; see People v Rawlinson. 170 AD3d 1425, 1430 [2019]).
The burden is on the defendant to " demonstrate the absence of
strategic or other legitimate explanations for counsel's
choices" (People v Thiel. 134 AD3d 1237, 1240 [2015] [internal
quotation marks, brackets and citations omitted], lv denied 27
NY3d 1156 [2016]; see People v Lewis. 138 AD3d 1346, 1348
[2016], lv denied 28 NY3d 1073 [2016]). Defendant first
contends that defense counsel improperly waived a Huntley
hearing regarding defendant's inculpatory statements during the
controlled phone call. The record indicates, however, that
defendant had "extensive discussions" with defense counsel
regarding the controlled call, and defendant instructed counsel
to waive the hearing (see People v Henriauez. 3 NY3d 210, 217
[2004]; People v Davis. 308 AD2d 343, 345 [2003], lv denied 1
NY3d 570 [2003]). Further, the record does not contain any
evidence to show that defense counsel's waiver of a Huntley
hearing was not a strategic decision in light of his trial
strategy (see People v Umana. 143 AD3d 1174, 1175 [2016], lv
denied 29 NY3d 1037 [2017]; People v Thiel. 134 AD3d at 12401241) . To the extent that defendant complains that his counsel
failed to object to the introduction of his statements during
the controlled call as involuntarily, counsel cannot be faulted
for not making an objection that would have had little chance of
success (see People v Caban. 5 NY3d 143, 152 [2005]; People v
Brown. 169 AD3d 1258, 1260 [2019]).
Defendant further contends that his counsel was
ineffective in failing to object to the introduction of

-6-

I
!

i

!

110652

defendant's prior bad acts. However, such evidence was
admissible to show defendant's intent and motive, provide
necessary background and complete the victims' narratives, and
the record shows that County Court balanced the probative value
of this testimony against its prejudicial effect (see People v
Sorrell. 108 AD3d 787, 792 [2013], lv denied 23 NY3d 1025
[2014]; People v Jones. 101 AD3d 1482, 1483 [2012], lv denied 21
NY3d 1017 [2013]). Similarly, certain testimony regarding the
victims' disclosures of sexual conduct was relevant to explain
how the victims eventually disclosed the sexual conduct and how
the investigation started (see People v Ludwig. 24 NY3d 221, 231
[2014]; People v Gross. 118 AD3d 1383, 1384 [2014], affd 26 NY3d
689 [2016]). In addition, defendant failed to show that defense
counsel's failure to object to certain undesirable testimony was
not a purposeful choice made to avoid drawing further attention
to it (see People v Rodriguez. 135 AD3d 1181, 1185-1186 [2016],
lv denied 28 NY3d 936 [2016]). Ve also do not find that counsel
was ineffective in failing to move for a trial order of
dismissal (see People v LaDuke. 140 AD3d 1467, 1471 [2016]).
Overall, the record reveals that defense counsel pursued a
rational trial strategy, presented cogent opening and closing
statements, vigorously cross-examined the victims and the
People's other witnesses and called witnesses for the defense,
thus providing defendant with meaningful representation (see
People v LaDuke, 140 AD3d at 1471-1472; People v Bchavarria. 53
AD3d 859, 864 [2008], lv denied 11 NY3d 832 [2008]; People v
Puller. 50 AD3d at 1176; People v Wright. 5 AD3d 873, 877
[2004], lv denied 3 NY3d 651 [2004]).
Finally, we are unpersuaded that defendant's sentence,
which fell within the statutory parameters, was harsh or
excessive. In addition to considering letters from various
community members — who asked for leniency due to their view of
defendant's character and his past good work — County Court also
considered the trial testimony, the presentence report and the
victim impact statements. Given defendant's denial of
responsibility for his actions, his exploitation of a position
of trust and the devasting effect on the victims, we find no
abuse of discretion or extraordinary circumstance warranting a
reduction of the sentence in the interest of justice (see People

!:

i;

1

-7—

110652

v Horton.
AD3d
, 2019 NY Slip Op 04782, *3 [2019];
People v Jaeger. 96 AD3d 1172, 1175 [2012], Iv denied 19 NY3d
997 [2012]; People v Baftollllo. 47 AD3d 1122, 1122 [2008]).
Defendant's remaining contentions, to the extent not
specifically addressed herein, have been examined and found to
be lacking in merit.
Garry, P.J., Egan Jr., Clark and Rumsey, JJ.

If.

ORDERED that the judgment is affirmed.

ENTER:

I

Robert D. Mayberger
Clerk of the Court

concur.

t

State ofNew York
Supreme Court, Appellate Division
TfirdjudicinfDepartment
i

Decided and Entered: May 16, 2019

!
1

110652

!

THE PEOPLE OF THE STATE OF
NEW YORK,
Respondent,

DECISION AND ORDER
ON MOTION

v

MICHAEL N. KELSEY,
(Ind. No. 2015-123)
Appellant.
i!

!

Motion for permission to file a pro se reply brief.
Upon the papers filed in support of the motion, and no papers having been filed
in opposition thereto, it is

i\

ORDERED that the motion is granted only to the extent that the pro se reply
brief is deemed timely filed and served, and only those portions of the appendix submitted
with the pro se reply brief that are part of the record on appeal will be considered by this

\

Garry, P.J., Egan Jr., Lynch, Clark and Rumsey, JJ. , concur.
ENTER:

Robert D. Mayberger
Clerk of the Court

s
COUNTY COURT
COUNTY OF ST. 1.,A WRENCH

STATE OF NEW YORK

THE PEOPLE OF THE STATE OF NEW YORK
DECISION AND ORDER
Respondent,
- against Ind. No.:.2015-0l23

MICHAEL N. KELSEY,
Defendant.

GARY PASQUA, District Attorney, Canton (Matthew L. Peabody of counsel), for the People.
MICHAEL KELSEY, defendant pro se.

CATENA, J.
Defendant moves to vacate his conviction pursuant to CPL 440.10 by motion dated
February 24, 2020.

The People responded by Affirmation dated

March 25, 2020.

Defendant filed additional papers in support of his motion dated March 26, 2020 and

The

a reply

affidavit dated April 15, 2020.
On May 12, 2016, the defendant was convicted after trial of sexual abuse in the first
degree (PL §1,30.65(2]), attempted sexual abuse in the first degree (PL §§110.00, 130.65(2]).
forcible touching (PL §130.52), and endangering the welfare of
counts).

a child (PL §260.10(1 ])(2

The defendant then moved to set aside the verdict pursuant to CPL 330.30( 1) alleging,

among other tilings, that the prosecutor’s opening statement, was legally insufficient, and that the
prosecution improperly introduced defendant’s prior bad acts. The motion was denied by order
ot this Court and tile defendant was sentenced on October 21, 2016. The defendant tiled a
I

i

notice ot appeal with the Appellate Division, Third Department, which affirmed this Court’s
judgment (People v. Kelsey, 174 AD3d 962 [3rd Dep. 2019]').
Initially, except for defendant’s arguments concerning newly discovered evidence and
interest of justice, the defendant’s motion must be dented because Ihe grounds or issues raised
were previously determined on the merits upon appeal or could have been determined but for
defendant’s unjustifiable failure to raise such issues upon appeal (CPL 440.10[2][a],[c]), And to
the extent defendant alleges facts not appearing on the record, they could with due diligence have
readily been made to appear (CPL 440.1()[3][a]). However, were this Court to reach the merits
lor those arguments that must he denied as aforementioned, it would find them to be without
merit (CPL 440.30[4]).
Regarding defendant’s arguments concerning alleged newly discovered evidence, his
motion must be denied because he merely alleges impeachment evidence that was in existence
and, therefore, discoverable through cross-examination at the time of trial (People v. Wagner, 51
AD2d 186, 188 [3d Dept 1976]; People v. Wood, 94 A.D.2d 849, 850 [3d Dep 1983]). Here,
defendant alleges the victims made statements in a January 17, 2019 deposition that they first
told each other about the abuse they suffered while they were intoxicated in September 2014.
l'[l]he test . . .

enunciated which has been approved and followed for determining the

sufficiency of the new evidence requires that: (1) it must be of such nature as would possibly
change the verdict should a new trial be granted; (2) it must have been discovered since the
previous trial; (3) it must be of such nature that could not have been discovered before the trial
by the exercise of due diligence; (4) it must be material to the issue; (5) it must not be cumulative
to the former issue; (6) it must not be impeaching
v. Wagner, supra).
2

ot

contradictory of former testimony” (People

1
i

!

Finally, to the extent that defendant seeks relief in the interest of justice, this Court notes
that the Appellate Division, Third Department determined that “[gjiven defendant's denial of
responsibility for his actions, his exploitation of a position of trust and the devasting effect on the
victims, we find no abuse of discretion or extraordinary circumstance warranting a reduction of
the sentence in the interest of justice” (People v. KcLyy^upva at 966
The foregoing constitutes the decision ajnd order of this Court
'\
Dated:

V/tXk'

M\JL.

\
\

\

'HQJtf. FELIX J.CAtENA
County Court Judge

r\

V

\

NOTICE:
THE DEFENDANT IS HEREBY ADVISED OF HIS RIGHT TO APPLY TO THE
APPELLATE DIVISION, THIRD DEPARTMENT, P.O. BOX 7288, CAPITOL
STATION, ALBANY, NEW YORK 12224, FOR A CERTIFICATE GRANTING LEAVE
TO APPEAL FROM THIS DETERMINATION. THIS APPLICATION MUST BE
MADE WITHIN 30 DAYS OF SERVICE OF THIS DECISION. UPON PROOF OF
FINANCIAL INABILITY TO RETAIN COUNSEL AND TO PAY THE COSTS AND
EXPENSES OF THE APPEAL, THE DEFENDANT MAY APPLY TO THE
APPELLATE DIVISION FOR THE ASSIGNMENT OF COUNSEL AND FOR LEAVE
TO PROSECUTE THE APPEAL AS A POOR PERSON AND TO DISPENSE WITH
PRINTING.
APPLICATION FOR POOR PERSON RELIEF WILL BE
ENTERTAINED ONLY IF AND WHEN PERMISSION TO APPEAL OR A
CERTIFICATE GRANTING LEAVE TO APPEAL IS GRANTED.

3

Additional material
from this filing is
available in the
Clerk's Office.

